                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-02A                                  Office of Inspections                                 February 2014




                               Inspection of
                           Embassy Sofia, Bulgaria




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                1
Context                                                                      2
Executive Direction                                                          3
  Strategic Planning and Direction                                           3
  Embassy Management and Coordination                                        4
  Morale and Workplace Issues                                                4
  Mentoring and Professional Development for First- and Second-Tour Staff    5
  Rightsizing                                                                5
Policy and Program Implementation                                            6
  Political/Economic Section                                                 6
  Consular Management                                                        8
  Public Affairs Section                                                    11
Resource Management                                                         14
  General                                                                   15
  Financial Management                                                      15
  International Cooperative Administrative Support Services                 16
  Human Resources                                                           17
  General Services                                                          20
  Facilities Management/Safety, Health, and Environmental Management        23
  Information Management                                                    24
Quality of Life                                                             26
Management Controls                                                         27
List of Recommendations                                                     28
Principal Officials                                                         32
Abbreviations                                                               33




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Ambassador possesses strong diplomatic and policy leadership skills and ably directs the
    embassy’s pursuit of U.S. policy objectives in a turbulent political environment. Under her
    leadership, the embassy country team works well together.

•   Embassy Sofia should strengthen some of its internal processes by linking travel, reporting
    and representation plans, and senior officers’ schedules to strategic goals and by periodically
    assessing the embassy’s progress in meeting those goals. The deputy chief of mission needs
    to move paperwork more quickly to the Ambassador to ensure timely decisionmaking.

•   The mission produces generally timely, high-quality analytical reporting on Bulgaria’s
    politics, human rights, legal reform, and the burgeoning bilateral security relationship.

•   The management and information management operations provide quality services to the
    embassy community. The consular section delivers quality services to the public and its staff
    demonstrates a strong customer service ethic; however, the inspection team identified
    leadership and management issues that must be addressed.

•   The public affairs section develops and implements excellent public diplomacy programs
    geared to the mission’s strategic goals and objectives.

•   Embassy Sofia should develop a more structured mentoring and professional development
    program for first- and second-tour employees.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 5 and 27, 2013, and in Sofia,
Bulgaria, between October 1 and 22, 2013. Ambassador Kenneth Brill (team leader), Laurent
Charbonnet (deputy team leader), Robert Eckert, Ellen Engels, Brett Fegley, Darren Felsburg,
Ralph Kwong, Brian Mohler, Mary Monica O’Keefe, Colwell Whitney, and Timothy Williams
conducted the inspection.




                                         1
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Context
        Since the collapse of the Soviet Bloc, Bulgaria has made uneven attempts to transform its
political and economic structures. Bulgaria joined the North Atlantic Treaty Organization in
2004 and the European Union 3 years later. Although Bulgaria sees its future with the West, it
retains a strong cultural identity with Russia due to shared religious and language traditions and
enduring respect for Russia’s role in freeing the country from centuries of Ottoman rule.

        Bulgaria’s democratic and political institutions lag behind those of other European Union
members. It has had three governments so far in 2013. Following spring elections, a minority
coalition led by socialists formed and survives on tacit support from ultranationalists. Ongoing
popular protests against the coalition have become a feature of domestic politics.

        Bulgaria’s shifting political situation complicates the bilateral partnership with the United
States. While security, law enforcement, and counterterrorism cooperation are strong, internal
turmoil affects progress on other U.S. priorities, such as promoting the rule of law, energy
diversification, and an improved business climate. Some media, for example, have incorrectly
blamed the two largest U.S. investments—electricity-generating thermal plants—for Bulgaria’s
high electricity prices.

        Bulgarian military forces participate with U.S. and international forces in Afghanistan.
The U.S. Defense Cooperation Agreement with Bulgaria allows use of joint facilities, provides
for exercises, and facilitates the movement and temporary stationing of aircraft and ships.
Bulgaria receives some U.S. security assistance. Bulgaria’s location on the Black Sea makes it a
natural route for trafficking in drugs, contraband, and people. Money laundering, financial fraud,
and digital piracy are also problems. Counterterrorism collaboration increased significantly after
a 2012 terrorist attack linked to Hezbollah.

        Bulgaria has been slowly building a market economy, with successive governments
committed to economic reforms. In the mid-2000s, bank lending, consumption, and foreign
direct investment drove robust growth, but the global downturn has cut domestic demand,
exports, capital inflows, and industrial production. Bulgaria is not part of the Euro zone and is
the European Union’s poorest country. Sluggish economic growth (0.6 percent in 2013),
corruption, and high energy bills exacerbated public discontent in 2013. Corruption, a weak
judiciary, and organized crime hinder its economic prospects. Nevertheless, its presence in the
European Union, abundant natural resources, educated work force, strategic location, and
relatively low costs make it a potentially attractive economic partner.

        Embassy Sofia employs 77 U.S. direct hires and 323 locally employed (LE) staff,
representing eight U.S. agencies. All embassy elements are located in the chancery, which
opened in 2005. Total mission funding for FY 2012 was $19.4 million, which includes
Department of State (Department) funding of $14.5 million and excludes U.S. direct-hire
salaries. Total bilateral assistance for FY 2013 is $9.5 million.




                                         2
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The Ambassador has demonstrated strong diplomatic and policy leadership skills in
directing the embassy’s pursuit of U.S. policy objectives in a turbulent political and policy
environment. Officials in the Department and other agencies praised her overall performance.
She has developed and maintained constructive relationships with key Bulgarian officials and
has ready access when needed.

        The Ambassador and deputy chief of mission (DCM), who is serving for the first time in
such a position, actively support the programs and activities of all agencies and encourage
collaboration among country team members. Department and other agency officials gave the
embassy generally and the Ambassador specifically credit for the success of a recent, complex
counterterrorism exercise with Bulgaria. The Ambassador is ensuring all mission elements
integrate their planning for another significant cooperative activity with Bulgaria and is shaping
Washington agencies’ planning through clear messages on what will be needed for success, in
terms of policy and resources.

Strategic Planning and Direction

        The embassy developed an Integrated Country Strategy through a missionwide process
led by the DCM. The overall document outlines clear embassy goals, although the OIG team
noted that the chief of mission priorities section could be more explicit. The embassy’s 2014
Mission Resource Request, prepared through a process led by the former management counselor,
provides very clear chief of mission priorities. The Ambassador used a town hall meeting
following the 2013 summer transfer season to outline her priorities and expectations for the
embassy staff.

         While the embassy did a good job of preparing its planning documents, it needs to do
more to make them part of its day-to-day operations. For example, the embassy has no
missionwide reporting, travel, or representation plans linked to strategic goals. Similarly, the
embassy has no process to assess periodically its progress in achieving the goals it has set for
itself and that Washington has implicitly endorsed.

Recommendation 1: Embassy Sofia should establish a periodic process to assess its progress in
meeting the goals of the Integrated Country Strategy, including appropriate adjustments to
mission reporting, travel, and representation plans, and report the assessment to the Ambassador
and the Bureau of European and Eurasian Affairs. (Action: Embassy Sofia)

   Informal Recommendation 1:        Embassy Sofia should tie the work requirements of all
      Department of State U.S. direct-hire employees to its strategic goals.

   Informal Recommendation 2:          Embassy Sofia should use the political/economic
      section’s reporting plan as the core for developing a missionwide reporting plan linked to
      its Integrated Country Strategy.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

   Informal Recommendation 3:          Embassy Sofia should apportion representational and
      travel funds based on deputy chief of mission-approved section travel and representation
      plans linked to the mission’s strategic goals.

   Informal Recommendation 4:        Embassy Sofia should periodically use its weekly
      scheduling meeting to assess whether the Ambassador’s and other senior officers’
      meetings are tracking with the mission’s strategic goals.

Embassy Management and Coordination

        The embassy front office works together as a team and is accessible to embassy staff.
Embassy staff members confirm the front office’s open-door policy is real and used. The DCM
drops by offices and frequently meets informally with mission staff, which they appreciate. The
Ambassador, who had done less of that in her first year, has begun to get out of the front office
more often and engage informally with staff. It is important that she continue and build on this
practice.

        Despite good teamwork, the front office can be slow to make decisions. The main
problem is that cables, memoranda, and other items requiring decisions become stuck in the
DCM’s office. The OIG team counseled him to promptly deal with issues and paperwork that
come to him for action. He acknowledges the problem and is trying to improve. The Ambassador
crisply leads embassy meetings, uses agendas, and assigns follow-up actions. The DCM is much
less effective in meetings. The team counseled him on the use of agendas to help staff prepare for
meetings and the need to make clear follow-up assignments at the end of meetings.

   Informal Recommendation 5:        Embassy Sofia should direct the deputy chief of mission
      to develop a paper-flow process that will permit office management specialists to move
      cables and memoranda from his inbox to the Ambassador’s, if he has taken no action on
      them within 12 hours.

        Embassy Sofia has a talented country team that generally works well together. Embassy
Sofia’s regional security officer (RSO) is dedicated, creative, and hard-working, but occasionally
takes issues to the front office before coordinating with all colleagues whose equities are
affected, including the law enforcement agencies. This lack of coordination has produced some
tension and hampered mission teamwork. At times, the RSO has not adequately explained
security procedure changes to the general embassy community, causing puzzlement. OIG
inspectors counseled the RSO on practical ways to engage the broader community on, and build
support for, embassy security procedures and policies.

   Informal Recommendation 6:          Embassy Sofia should require the regional security
      officer to consult with relevant country team colleagues before developing and reaching
      decisions on proposals for front office approval.

Morale and Workplace Issues

        Embassy Sofia’s staff generally has high morale. Embassy workspaces are relatively new
and well maintained. The LE staff members are extremely competent and professional, and they
are valued and respected by their American colleagues. The embassy’s antidiscrimination and
                                        4
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

antiharassment programs have adequate counselors for American and LE staff. Embassy
management agreed with the OIG team’s suggestion to have a town hall meeting in the coming
months featuring those counselors and to conduct staff awareness training on discrimination and
harassment issues. The community liaison office functions well.

Mentoring and Professional Development for First- and Second-Tour Staff

        Embassy Sofia has 14 first- and second-tour (FAST) employees, but the FAST mentoring
and professional development program is unstructured. The front office is supportive but not
actively engaged in shaping the program. The DCM appropriately serves as the reviewing officer
for most FAST employees. The OIG team counseled him to more actively mentor his
subordinates, including the FAST staff. A newly designated FAST coordinator polled FAST
employees on issues they would like to have addressed and organized a well-received brown bag
lunch with three embassy section chiefs to discuss career-related issues. Future meetings will
involve brown bag sessions with the heads of non-Department agencies at the embassy.

        The Secretary, the Director General, and other senior Department officials have made
clear they look to ambassadors and DCMs to contribute actively to the professional development
of FAST personnel.

Recommendation 2: Embassy Sofia should develop a more structured mentoring and
professional development program for first- and second-tour staff, which includes periodic
engagement with the Ambassador and the deputy chief of mission. (Action: Embassy Sofia)

Rightsizing

        Embassy Sofia will undergo a rightsizing review early in 2014. In the view of the
inspectors, the most significant issue may be expansion of the Department’s Post Support Unit,
which provides voucher processing services to posts worldwide. The Sofia unit is geographically
located to cover time zones in Europe, Africa, and much of the Middle East, giving it real-time
coverage of many posts. It comprises part of a network of support units—including Charleston
and Bangkok—that gives the Department near-24/7 processing operations. Embassy Sofia could
play a key role in developing more regionalized functions, potentially reducing financial
management staff at individual posts.




                                       5
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political/Economic Section

        Embassy Sofia’s political/economic section performs strongly under the effective
leadership of an FS-01 counselor and his deputy, who also serves as the economic unit chief.
Although four of five section officers (including the counselor and deputy) arrived during
summer 2013, they already are a fully integrated team. Officers’ portfolios and work
requirements statements accurately reflect the mission’s Integrated Country Strategy. All officers
are language-qualified in Bulgarian, including one with near-native fluency. The section spends
approximately 10 percent of its time handling visitors. During 2012, it supported 22 visits,
including 6 at the deputy assistant secretary-level or above.

Reporting and Advocacy

        In the 9 months before the inspection, this relatively small section drafted approximately
140 political cables and 35 economic cables, with a good mixture of well-sourced analytical
messages and spot reports; contextual commentary was insightful. Formally mandated reports on
trade, human trafficking, narcotics, human rights, and religious freedom were solid and
submitted on time. Washington consumers gave the embassy uniformly high marks on reporting,
particularly applauding its extensive coverage of the continually evolving and complex political
landscape in Bulgaria, an increasingly close security partner. Washington agencies also
appreciated reportage on the embassy’s actions to secure Bulgaria’s support for the U.S. position
on the destruction of Syria’s chemical weapons, and on the Ambassador’s successful effort to get
Bulgaria to support the European Union’s designation of Hezbollah as responsible for a 2012
terrorist bombing.

        Washington readers did cite occasional delays in reporting breaking events; the delays are
due to front office clearance issues beyond the section’s control. Current staffing allows for
adequate coverage of high-priority issues, but the range of reported subjects has become more
narrowly focused, with limited coverage of labor unions, environmental issues, external
relations, and human trafficking. The OIG team suggested providing clearer sourcing of
information in reporting.

        The section makes good use of record emails. During a 6-month period in 2013, the
section sent 75 record emails. Most are excellent “end of day” reports, containing timely
information of policy relevance, and are distributed to an appreciative interagency group. The
section has productive daily contact with the Department’s Bulgaria desk.

        The section maintains and follows good written plans for reporting and official travel. All
officers and most LE staff have hosted representational events.

Human Rights and Refugees

        A full-time human rights officer implements the embassy objective of improving social
inclusion of marginalized groups such as Muslims, persons with disabilities, homosexuals, and
the Roma population. The human rights officer also covers refugee and migration affairs, the

                                        6
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

workload for which is growing as the Bulgarian Government is challenged to care for recent
waves of refugees from Syria. As Bulgaria prepares to join global refugee resettlement programs,
the embassy has organized government-to-government training by visiting U.S. officials. The
officer maintains close relations with representatives of the United Nations High Commissioner
for Refugees, the Red Cross, and the Helsinki Committee.

Political-Military Cooperation and Leahy Vetting

        A full-time political-military officer monitoring the robust U.S.-Bulgarian security
relationship under the Defense Cooperation Agreement works collaboratively with the U.S.
military representatives in the embassy. Recently, the officer reported extensively on the
destruction of obsolete Bulgarian military weapons that could have been used by terrorists,
supporting a key U.S. security goal in Bulgaria. The officer has become heavily involved in a
major initiative on the potential training of Libyan soldiers at a Bulgarian base by U.S. and
Bulgarian trainers. This project, if carried out as planned, will limit the section’s ability to cover
other political-military issues.

        The human rights officer and an LE colleague have completed required training on Leahy
vetting, as have two colleagues who act as backups. This process seeks to vet Bulgarian
candidates for U.S.-sponsored military or security training to ensure none have committed
human rights violations. During the past year, no one has been turned down for training on
human rights grounds, although some applicants have been rejected for other reasons. The
section processed 334 individuals for Leahy vetting in 2012.

Law Enforcement Cooperation

        To bolster bilateral law enforcement cooperation, the embassy hosts the Federal Bureau
of Investigation, the Drug Enforcement Administration, and the U.S. Secret Service. The DCM
and the RSO co-chair meetings of the law enforcement working group to coordinate the efforts
of the respective agencies with local counterparts. Given the political complexity and the
presence of transnational organized crime, it would be useful to ensure participation in the
working group by other relevant sections, including consular and political/economic, to add
perspective and better understanding of the Bulgarian political and crime scene.

   Informal Recommendation 7:        Embassy Sofia should add the chiefs of the
      political/economic and consular sections to the law enforcement working group.

Rule of Law

        A full-time rule-of-law officer works to strengthen the Bulgarian justice system’s ability
to combat local and transnational crime, while protecting civil rights. The section chief chairs the
rule-of-law working group—which includes law enforcement agency representatives, the RSO,
the consular section, and the public affairs section—to coordinate U.S. efforts to: improve U.S.-
Bulgarian cooperation; enhance the efficiency and independence of the courts; assist the
government’s electoral reform efforts; and help Bulgaria root out corruption.




                                         7
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Trade Promotion

        Bulgaria’s market potential is stymied by access issues, including poor intellectual
property protection and an opaque government procurement regime. The embassy has worked to
open Bulgaria’s market to U.S. exports. After progress in protecting intellectual property that
resulted in the United States dropping Bulgaria from the Special 301 watchlist some years ago,
this year the embassy argued that the country should be put back on the watchlist because of
backsliding due to poor enforcement of its own laws. The monthly economic/energy/investment
working group, chaired by the economic unit chief, is the mechanism through which the three
economically related sections devise U.S.-export promotion strategy. The OIG team observed
strong collaboration and coordination between the political/economic section, the Foreign
Commercial Service, and the Department of Energy representatives.

Environment, Science, Technology, and Health

        The United States and Bulgaria signed a Science and Technology Cooperation
Agreement in 2008. One economic officer spends 10-15 percent of her time on environmental
and scientific issues, assisted by an LE staff member. This amount of time is sufficient for
delivery of demarches, occasional outreach, and one or two larger projects per year. A regional
environment, science, technology and health officer at Embassy Budapest covers Bulgaria but
has not visited Sofia in several years due to limited travel budgets.

Assistance Programs

        In FY 2014, Bulgaria will receive $9.5 million in security assistance, largely Foreign
Military Financing and International Military Education and Training. There is a small amount of
funding set aside for nonproliferation, antiterrorism, demining, and related programs. No one in
the political/economic section is certified as a grants officer representative because these
programs are monitored from Washington or the Office of Defense Cooperation. The political-
military officer participated in the development of the operational plan for security assistance.

Consular Management

       Embassy Sofia’s consular operations work well. The quality of American citizens
services, including Federal benefits, is high despite a staffing deficit. Visa services are courteous,
professional, and usually timely. The quality of visa interviews is solid, and the most
experienced American officers and LE staff have a sophisticated understanding of law,
procedure, and local conditions. In her first year, Embassy Sofia’s consular section chief made
important procedural changes that strengthened visa adjudicators’ ability to make independent,
well-grounded decisions.

       In June 2013, at the request of the consular chief, a Consular Management Assistance
Team visited Embassy Sofia for one week. The team made 11 recommendations, officially
communicated by cable on August 29, 2013. The embassy’s response cable, dated September 19,
2013, reported progress in complying with most recommendations and committed to comply
with the remainder. Beyond its formal recommendations, the Consular Management Assistance
Team found “few technical areas for improvement.” The OIG team concurs with this judgment.

                                         8
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Leadership and Communication

        The consular section generally performs well, but some gaps in the consular chief’s
communication and organizational skills have hampered her ability to build a team and formulate
strategic plans effectively. The consular section chief is an experienced and conscientious
consular officer with a strong understanding of immigration law and the Foreign Affairs Manual
(FAM). She expressed concern that consular officers might feel overextended by their assigned
duties, but officers generally felt insufficiently challenged and expressed a desire for broader
responsibilities to employ and extend their professional skills. Staff also characterized the
consular chief as procedurally rigid and detail-focused in a way that sometimes inhibited
independent problem solving and resulted in delayed decisionmaking. LE staff members
generally describe her as knowledgeable, accessible and responsive; however, a number of LE
staff members expressed a desire for more personal engagement by the consular chief, which
would demonstrate an interest in their work and a willingness to collaborate with them as
subject-matter experts.

        The consular chief works long hours, including weekends. Although her management
responsibilities grew following the elimination of a deputy chief position in 2011, the consular
chief has insufficiently delegated responsibilities to her staff. Politically sensitive extraditions
this year exacerbated time management problems, as did the peak season for the Summer Work
Travel program visa applicants, who experienced numerous adjudication delays.

   Informal Recommendation 8:         Embassy Sofia should require the deputy chief of mission
      to identify appropriate mentors to strengthen the consular chief’s leadership,
      management, and communication skills. The specific mentoring arrangement should be
      determined in consultation with the deputy chief of mission

Staffing of Extradition Cases

        During FY 2013, several high-profile extradition cases required unusually large time
commitments by embassy staff. For a variety of reasons, the bulk of these responsibilities fell to
the consular chief, even though they touched on political or public diplomacy concerns. These
responsibilities took inordinate time away from her leadership and management responsibilities
in the consular section.

Recommendation 3: Embassy Sofia should implement a standard operating procedure that
formally delineates between sections responsibilities for handling extradition cases. (Action:
Embassy Sofia)

Summer Work Travel Program

        The Department-sponsored Summer Work Travel program brings full-time university
students to the United States for cultural exchange and temporary employment. The popular
program has a high profile with the Bulgarian Government and public. It is important to the
bilateral relationship that visa adjudication for the program be efficient and transparent, with
appropriate safeguards.


                                         9
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Communication problems and misunderstandings between Sofia’s consular section, the
Bureau of Consular Affairs’ Visa Office, and the Kentucky Consular Center hampered visa
processing for the FY 2013 program. Adjudication of hundreds of Summer Work Travel visas
was delayed until almost the time of scheduled departure. Reportedly, several neighboring posts
with large numbers of Summer Work Travel applications experienced similar problems. The
Consular Management Assistance Team recommended that the embassy address these issues,
working with relevant offices.

Recommendation 4: Embassy Sofia should engage with the Bureau of Consular Affairs’ Visa
Office to clarify procedures well in advance of the FY 2014 Summer Work Travel peak season.
(Action: Embassy Sofia, in coordination with CA)

        After conducting a validation study of the 2012 Summer Work Travel program, the
consular section implemented enhanced screening procedures that improved the quality of visa
adjudication. Embassy Sofia intends to conduct another study of the FY 2013 program to
validate success of the new procedures. Implementation of the procedures last summer, however,
resulted in a higher number of refusals and attendant negative publicity.

   Informal Recommendation 9:         Embassy Sofia should task the consular and public
      diplomacy sections to implement an affirmative public outreach strategy prior to the
      beginning of the application season for the FY 2014 Summer Work Travel program.

Portfolios

        Sofia’s two most experienced consular FAST officers consistently express a desire for
greater management responsibility. Although each has supervisory responsibility for a functional
unit or units, the consular chief assigns broader management responsibilities for matters such as
communication, outreach, and professional development on a more ad hoc basis. The section’s
talented and team-oriented LE staff is also capable of taking on more challenging professional
responsibilities. A realignment of officer and LE staff portfolios would help the consular section
operate more effectively.

Recommendation 5: Embassy Sofia should review existing consular portfolios and consolidate
related functions. (Action: Embassy Sofia)

Recommendation 6: Embassy Sofia should require teams that include a first- and second-tour
officer and locally employed staff to manage the consular portfolios. (Action: Embassy Sofia)

Fraud Prevention

       Sofia’s fraud prevention investigator is an experienced, knowledgeable, and professional
LE staff member. The fraud investigator personally screens 100 percent of documents submitted
in support of immigrant and nonimmigrant visa cases prior to interviews, an unusual practice.

        Prescreening documents for 100 percent of applications might identify issues for officers
to consider during interviews, but it also has at least three drawbacks: the responsibility for the
visa issuance decision rests solely on the adjudicating officer, and the fraud investigator’s notes
may inappropriately affect, or appear to affect, the officer’s decisionmaking; there is little need
                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

for the investigator to review documents of applicants who were refused visas by the
adjudicators; and the current approach places excessive emphasis on documents at the expense of
other evaluative tools.

Recommendation 7: Embassy Sofia, in coordination with the Bureau of Consular Affairs,
Office of Fraud Prevention Programs, should review Sofia’s practice of screening all visa
application supporting documents, and identify a process that will protect the integrity of the
adjudications, while maximizing efficiency and effectiveness of the fraud prevention
investigator. (Action: Embassy Sofia, in coordination with CA)

American Citizens Services

        A Consular Management Assistance Team recommended that the consular chief delegate
her management of the American citizens services unit to a FAST officer. Although the
delegation formally took place, the consular chief remains involved in a number of American
citizens services matters. While such involvement is not inappropriate, reporting responsibilities
have not yet been fully clarified, which sometimes causes confusion among the LE staff about
who is in charge.

Recommendation 8: Embassy Sofia should define reporting responsibilities within the
American citizens services unit so that reporting and case management flow directly through the
American citizens services first- and second-tour officer. (Action: Embassy Sofia)

        The Consular Management Assistance Team strongly recommended that the embassy
hire a second LE staff member in support of the current American citizens services assistant.
Embassy Sofia has initiated the hiring process and expects to hire a second American citizens
services staff member soon. Summer Work Travel season lays heavy demands on consular
staffing. The inspection team counseled the consular chief to ensure that all American citizens
services demands are met before assigning staff from that unit to other duties.

Public Affairs Section

         Sofia’s public affairs section plays an integral and effective role in addressing the
priorities in the mission’s Integrated Country Strategy. The public affairs officer enjoys a close
relationship with the Ambassador and DCM, communicating daily and participating actively in
regular embassy and interagency meetings. The section was part of a pilot program, now
required by the Under Secretary for Public Diplomacy and Public Affairs, to create a public
diplomacy implementation plan tied to the mission’s Integrated Country Strategy. At the start of
FY 2013, the section outlined every planned public diplomacy program, indicating timeframe,
funding source, estimated cost, and public diplomacy theme.

        While public affairs is integrated into the strategic work of the mission, the embassy has
not organized a formal outreach program for American personnel to speak to Bulgarian
audiences, but conducts such events on an ad hoc basis. The public affairs section is the logical
section to manage such a program, which should include FAST employees.




                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 9: Embassy Sofia should establish a mission speakers program for American
employees, including first- and second-tour employees, to conduct outreach to Bulgarian
audiences. (Action: Embassy Sofia)

Section Management

         The public affairs officer effectively leads the public affairs section and has formed a
cohesive team. The public affairs section expanded its budget from its regular FY 2013 allotment
of $861,000 to more than $1 million by seeking additional resources from other Department
bureaus for strategic programs, creating an organization for program alumni, and enhancing
American Spaces. The section competed for and won a $100,000 grant for the Ambassador’s
Fund for Cultural Preservation for an historic Bulgarian heritage site. The section partners with
U.S. firms, the American Chamber of Commerce, the America for Bulgaria Foundation, local
institutions, and universities to augment public diplomacy funding by sponsoring high-profile
public events to encourage entrepreneurship, increase tourism to the United States, and showcase
American performing arts and culture. The public affairs section judiciously provides grants to
reliable local partners to organize public diplomacy programs furthering the mission’s strategic
objectives, simultaneously expanding the mission’s reach, and building capacity in local
organizations. Grants records are in good order. All programs are documented in the Mission
Activity Tracker. The contact database is used missionwide. Position descriptions are evaluated
regularly, but a few for LE staff need updating to include added responsibilities for social media
use and analysis and digital technology.

       The public affairs section provides photographic and audiovisual services for official
mission events, but requests are sent ad hoc and are difficult to track and coordinate; this
hampers decisionmaking on effective allocation of resources.

Recommendation 10: Embassy Sofia should implement a policy for prioritizing requests for the
public affairs section’s photographic and audiovisual services for official mission events and
devise a computer-based system for submitting and tracking requests. (Action: Embassy Sofia)

Cultural and Exchange Programs

       The cultural affairs officer creatively finds ways to leverage limited appropriated funds
by seeking partner contributions from local and American businesses and organizations. For
example, he collaborated with a local filmmaker who produced a documentary on a New Orleans
jazz band, secured extra funding to bring the group to Bulgaria for concerts, showed the film,
arranged media coverage, and showcased the group in television interviews, thereby amplifying
the audience many times over. During the course of the inspection, however, the inspectors were
unable to observe any public diplomacy events because of cancellations due to the U.S.
Government shutdown.

        The Fulbright Commission, with five Bulgarian and five American members, including
the public affairs officer and the cultural affairs officer, oversees the Fulbright program. The
well-respected executive director helped steer the program through the societal changes of the
past 20 years and is now focused on leveraging alumni relationships for development and
fundraising. In addition, the program sponsors 28 American English teaching assistants, partially
supported by funding from the America for Bulgaria Foundation (successor organization to the
                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

U.S.-Bulgaria Enterprise Fund) and other donors. These English-teaching assistants have become
the flagship of the Bulgaria Fulbright program, bringing innovation and energy to schools and
communities all over Bulgaria. The Commission also conducts educational advising, serving
over 12,000 clients last year.

Media Relations and Reporting

         A high-performing entry level officer leads the press office. Washington audiences
expressed appreciation for regular updates on the changing media ownership and political
affiliations. The public affairs section sends to the Department occasional email reports on
significant media developments. The inspection team counseled the public affairs officer to
employ record email for these reports.

Social Media

        Since Embassy Sofia launched its Facebook page in 2011, fans have exceeded 17,000,
considerable growth for a country of this size. Daily posts receive between 1,000 and 3,000
views. Some popular posts (Ask the Ambassador and the photo contest) have reached 45,000 to
60,000 views. The section makes effective use of modest advertising aimed at target audiences
for specific Facebook activities, which has led to a large number of people actively engaged and
sharing Embassy Facebook posts. The embassy YouTube site surpassed 100 subscribers; the
section has plans to attract more viewers with its new layout and cover photo. The site will be
updated regularly with shorter videos with more easily accessible content. The inspection team
did not have an opportunity to evaluate active, daily use of the public Web site, Facebook, or
YouTube sites, because updates were halted during the U.S. Government shutdown. The public
affairs officer has proposed a missionwide social media working group, chaired by the press
officer, to help prepare a monthly Facebook calendar to which each section and agency may
contribute events.

Information Resource Center and American Spaces

         Although the Information Resource Center, located within the embassy building, is not
open to the public for security reasons, the public affairs section has wisely chosen to make it the
command center for overseeing administration and management for all aspects of the American
Spaces program in Bulgaria. The center director and deputy are experienced LE staff members
who make use of their extensive professional relations with prominent institutions in the
Bulgarian information community. The director oversees the partnerships with three American
Corners supported by public libraries in Sofia and two other cities. The Sofia American Corner,
located in the Sofia Public Library in the center of town, is a partnership between the library, the
embassy, the American Chamber of Commerce, the America for Bulgaria Foundation, and
locally-based U.S. firms. The outreach network also includes fifteen “American Shelves” in local
libraries that extend reach to audiences outside the capital. American Corners are in wide
demand as program venues, not only for embassy events, but from local U.S.-affiliated
organizations. In 2012, more than 20,000 Bulgarians participated in programs at these partner
institutions and preliminary statistics for 2013 indicate a similar level of interest.




                                       13
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Resource Management
            Agency                  U.S.       U.S.       Foreign    Total     Total
                                   Direct-    Local-      National   Staff    Funding
                                  Hire Staff Hire Staff    Staff              FY 2012
Department of State
Diplomatic & Consular Program            26          9          14      49    $2,452,494
Consular Affairs                          4          3          12      19     $520,745
ICASS                                     6          7         111     124    $6,218,100
  Diplomatic Security                                           71      71    $1,011,000
  Overseas Buildings Operations                                                  $85,700
Public Diplomacy                          3                     16      19     $901,100
Diplomatic Security                       5          1          18      24     $993,813
Marine Security                           6                      2       8     $108,700
Representation                                                           0       $26,800
Overseas Buildings Operations             1                              1    $1,531,217
Department of Agriculture
Foreign Agriculture Service                                      2       2      $141,313
Department of Defense
Defense Attaché Office                    7          1           3      11      $509,460
Office of Defense Cooperation             4                      6      10      $513,932
Force Protection Detachment               2                      1       3      $240,000
Department of Justice
Drug Enforcement
Administration                            3                      1       4      $141,203
FBI/Legal Attache's Office                3                              3      $206,637
Department of Homeland
Security
U.S. Secret Service                       4                      1       5      $478,675
Customs and Border Control                                               1
Foreign Commercial Service                1                      4       5      $358,766
Department of Energy                      2                      2       4      $153,668
Comptroller and Global
Financial Services                                              36      36      $634,375
Peace Corps                                                      2       2    $2,200,000
Totals                                   77         21         302     401 $19, 427, 698




                                     14
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

General

         The management section provides high-quality services to its customers. International
Cooperative Administrative Support Services (ICASS) customer satisfaction survey scores
exceeded worldwide averages in 24 of 29 categories of service. OIG surveys yielded similarly
positive results. Inspectors identified some areas of improvement but found the section and
individual operating units otherwise to be well led and managed. The U.S. direct-hire and LE
staff is knowledgeable and functions as a cohesive team. Business processes generally are
defined and executed accordingly, and internal controls are fundamentally sound.

        Embassy management recognizes that the Post Support Unit should be better integrated
into the embassy. Inviting the unit’s supervisor to the weekly management meeting could be an
effective first step, as it would give her a more formal connection to the embassy and enable
regular face-to-face communication with management staff.

   Informal Recommendation 10: Embassy Sofia should invite the Post Support Unit to
      participate in its weekly management staff meeting.

        Under the capable and decisive leadership of the recently arrived management counselor,
the management team responded well to rapidly changing circumstances during the U.S.
Government shutdown that, among other things, affected funding and delayed salary payments to
some LE staff members. Working closely with the front office and providing sound advice that
conformed to Department guidance, the management counselor and staff ameliorated the impact
of the appropriation lapse. The embassy, for example, acted quickly to coordinate with its
recreation association to offer interest-free loans to LE staff whose salaries were delayed.

Financial Management

        Embassy Sofia’s financial management officer also serves as the human resources officer
and, with significant experience in both disciplines, is well suited to this dual position. She has
given the senior LE staff financial specialist supervisory responsibility for the entire section, a
change that establishes a more normal hierarchical structure and eases the direct supervisory
burden on the American officer. The section’s LE staff has significant expertise and is highly
motivated.

Status of Funds

       Review of funds management showed unliquidated obligations of $149,000 from FYs
2010-2012, primarily for several public diplomacy grants which (properly) have not yet closed
out. The unliquidated balances, however, are fully justified to the Department on a regular basis
and represent less than 1 percent of ICASS and program budgets over the last three fiscal years.
Separation of duties is proper. Voucher payment processing is timely and well documented.
Representational funds are shared appropriately among embassy sections and the Ambassador’s
and DCM’s voucher preparers are well educated on the differences between official residence
expenses and representation costs, making for a smooth reimbursement process.




                                       15
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Cashiering

       The Class B cashier and alternate Class B cashier keep meticulous records, and there
have been no problems with cash counts. The Office of Defense Cooperation funds travel for up
to 350 Bulgarian trainees yearly, which resulted in a temporary increase of the cashier’s
                                                                        [Redacted] (b) (2), [Redacted] (b) (5)
                  [Redacted] (b) (2), [Redacted] (b) (5)
accountability to                                        for regular embassy needs plus for the Defense
cooperation program). The embassy vetted this process with the Financial Service Center
Charleston and expects that the cash accountability will remain at the same level for the
foreseeable future.

       The cashier uses suspense deposit accounts for collections of value-added tax
reimbursements from the host government and makes disbursements to individuals promptly.
The cashier also makes collections into a suspense deposit account for social security payments
for employees of the employee recreation association and collects U.S. dollar funds from the
association for deposit into a U.S.-based bank account. The cashier has permission to do reverse
accommodation exchange only for the Marine security guard detachment. An onsite Bulgarian
bank provides all other regular and reverse accommodation exchange for embassy employees.

         The inspectors noted that Financial Service Center Charleston makes salary payments
directly to official residence expense employees through electronic funds transfers. This practice
does not comply with 3 FAM 3257, which states that staff employed under official residence
expenses are employees of the principal representative, not of the U.S. Government. Thus, these
employees cannot be paid directly from appropriations, U.S. Disbursing Officers, or cashiers. In
its May 2010 report, the cashier monitor cited Embassy Sofia for incorrectly disbursing these
staff salaries directly, when the principal representative should be paying. The embassy did not
take corrective action.

Recommendation 11: Embassy Sofia should implement a policy of direct payment of salaries to
official residence expense employees by the Ambassador and deputy chief of mission. (Action:
Embassy Sofia)

       [Redacted] (b) (5)



    Informal Recommendation 11: Embassy Sofia should provide the Class B cashier and
       alternate Class B cashier with training on recognizing counterfeit U.S. and local currency.

International Cooperative Administrative Support Services

        The financial management section and the ICASS council enjoy excellent relations. The
council and service providers annually review their ICASS memorandum of understanding and
service-level agreements and budgets. Council members are engaged and pay close attention to
ICASS issues, but they report no difficulties in reaching agreements. Council members
appreciate the financial management officer’s effective coaching on “big picture” issues and the
financial specialist’s ability to explain the specifics of ICASS charges and program
administration. The financial management officer provided introductory training to the council
during the past year but, with a significant turnover in council membership in summer and fall
2013, refresher and new member training is in order.
                                         16
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

   Informal Recommendation 12: Embassy Sofia should provide training on the
      administration of the International Cooperative Administrative Support Service program
      to the council members.

Human Resources

        Embassy Sofia’s human resources LE staff members are experienced, conscientious, and
generally positive about their work and role in the embassy. As in the financial management
section, the human resources/financial management officer restructured the human resources
section, giving one of the locally employed HR assistants supervisory responsibilities over the
entire section.

        The LE staff compensation plan and local leave and separation plans are updated
appropriately and have Washington approval. Revisions to the 2009 Foreign Service National
Handbook are underway, with good progress. The post report, retail price survey, and differential
reports are up to date, and the staff administers the awards system for LE staff and Americans
correctly, but only once a year, in May or June. Performance recognition is an important morale
factor and, in the case of Americans, granting awards no later than April each year would ensure
their inclusion in official personnel folders in time for promotion panels.

   Informal Recommendation 13:          Embassy Sofia should hold awards solicitations
      semiannually.

Locally Employed Staff Services

         LE staff paper files are complete and reflect prompt processing of within-grade increases,
promotions, and yearly evaluations. The human resources staff provides position descriptions,
along with instructions and employee performance reports to supervisors 2 months in advance of
the evaluation due date for each employee and follow-up with reminders 1 month and 1 week
prior, resulting in an excellent record of timeliness.

        Several LE staff members noted, and the inspectors confirmed, that some position
descriptions do not accurately reflect work performed. In one case, the position description is
accurate, but reclassification to a higher grade is overdue. Although the human resources staff
provides position descriptions to supervisors and employees each year when LE staff employee
performance reviews are due some supervisors have not updated the positions descriptions to
reflect current duties, as required by 3 FAM 7513.1(4).

Recommendation 12: Embassy Sofia should review and update the following position
descriptions and, if warranted, reclassify and regrade them: information assistant (C-73024);
distribution clerk (Admin) (C-76021); warehouseman (C-52633); visa assistant (C-31015); and
visa clerk (C-31003). (Action: Embassy Sofia)

   Informal Recommendation 14: Embassy Sofia should require supervisors of locally
      employed staff to review and update position descriptions if duties change, in accordance
      with Department of State guidelines.


                                       17
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

American Staff Services

        Work requirements statements for Embassy Sofia’s U.S. direct hires are completed
within 45 days of the start of the rating period, but they are sometimes prepared in a Microsoft
Word document that is not submitted through ePerformance in a timely manner. Recording every
step of the process in ePerformance ensures proper tracking of employee evaluation reports.

   Informal Recommendation 15: Embassy Sofia should require supervisors or their proxies
      to enter work requirements statements into ePerformance when due.

        Embassy Sofia currently has 20 full-time or part-time eligible family member positions.
Procedures for establishing and filling positions, including distributing job announcements,
assessing qualifications, training supervisors on proper interview techniques, and using the
employment committee in the selection of applicants, are correct and well documented.

        One area of concern is the embassy’s failure to report consistently on absences of
American employees. Such reporting alerts time and attendance staff to stop and start post
differential payments. While a post management notice requires all American staff to note in
their leave slips any travel to the United States, employees sometimes overlook the requirement.

   Informal Recommendation 16: Embassy Sofia should implement management controls
      to ensure that employees and supervisors alert time and attendance staff when post
      differential payments should stop and restart.

Foreign Service National Committee

        Embassy Sofia has an active Foreign Service national committee that meets quarterly and
otherwise on an as-needed basis; however, the frequency of committee’s meetings with
management varies. The management officer intends to meet with the committee monthly, and
the DCM has met with the committee only once since his arrival a year ago. The human
resources officer does not meet with the committee but has a staff member send monthly updates
to the committee, a practice the committee feels is inadequate. More direct attention from the
DCM and human resources officer could contribute to improved morale.

   Informal Recommendation 17: Embassy Sofia should require the human resources
      officer, management officer, deputy chief of mission, and Ambassador to attend meetings
      of the Foreign Service national committee on a regular basis.

        Records show that, at least since 2005, the Foreign Service national committee has
identified as its primary issue the legal status of LE staff under Bulgarian labor law and resulting
taxation requirements. Committee members want the Department to authorize the embassy to
withhold and pay taxes directly to the Government of Bulgaria and to amend its standard
personal services agreement to include specific language that would aid LE staff in securing
loans and conducting other legal activities. In February 2013, the Office of the Legal Adviser,
Office of Employment Law, responded to the embassy’s inquiry, stating that it is Department
policy that posts should not withhold taxes on behalf of the host state and that any exception to
the policy requires the approval of the Under Secretary for Management. The response outlined
the circumstances under which such exceptions (very few) have been granted and embassy
                                        18
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

management determined that, given the cooperation of the Government of Bulgaria with the
embassy in providing an acceptable mechanism for LE staff to pay taxes individually, it would
not be worthwhile to pursue such an exception. Embassy Sofia published a management notice
announcing the decision and its rationale on February 28, 2013, and considers the matter
resolved.

        With the tax issue resolved, the Foreign Service national committee remains focused on
amending the standard personal services agreement; the embassy’s request for an exception in
this regard has been under review by the Bureau of Human Resources, Office of Overseas
Employment, and the Office of the Legal Adviser, Office of Employment Law, for more than a
year. The real purpose of such an amendment, however, remains unclear, as the inspectors
learned that numerous banks, including the bank physically located within the embassy, which
has excellent loan rates, fully accept the existing terms of LE staff employment when
determining eligibility for loans. Additionally, the Government of Bulgaria recognizes the
personal services agreement as equal to its standard labor contract, with all the benefits that
accrue.

Recommendation 13: Embassy Sofia should formally request the Department to make a
determination on the personal services agreement issue and follow up until the Bureau of Human
Resources and the Office of the Legal Adviser respond. (Action: Embassy Sofia)

        The inspectors noted that, in 2007, Embassy Sofia published a thorough explanation, in
English and Bulgarian, of all the issues involved in the LE staff’s legal employment status. It
including official correspondence between the Bulgarian National Revenue Agency and the
embassy, and a chart comparing the various employment types and corresponding benefits, to
show the clear benefits of the current arrangement. The embassy has not reissued this extensive
notice since 2007, but in some years distributes, along with the yearly statement of earnings, a
shorter management notice on the subject.

Recommendation 14: Embassy Sofia should implement a schedule to update and reissue annual
guidance on the locally employed staff’s legal employment status. (Action: Embassy Sofia)

Regional Services

        Embassy Sofia has not always provided timely, quality human resources support to
Embassy Vilnius’ American and LE staff as outlined in a 2009 memorandum of understanding
between the two embassies. OIG’s inspection of Embassy Vilnius in 2013 1 also highlighted this
deficiency. Notwithstanding the substandard service, the Bureau of European and Eurasian
Affairs and both embassies expressed their commitment to making the relationship work as a
model for post-to-post support and regionalization. The two embassies have already taken
positive steps. The Vilnius management officer and human resources assistant visited Embassy
Sofia to discuss possible improvements and worked with Embassy Sofia to draft revisions to the
memorandum of understanding, including a role for the Regional Support Center Frankfurt as
adviser and facilitator of the program. A better-defined formal agreement and commitment of


1
    Inspection of Embassy Vilnius, Lithuania, Report No. ISP-I-13-41A, September 2013.

                                             19
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

more Sofia staff resources to support Vilnius make for a promising start in developing the post-
to-post regional model that all sides envision.

        The inspectors noted, however, the need for additional improvements. For example,
regular visits of Embassy Sofia’s human resources staff to Embassy Vilnius would establish
personal contact and enhance and solidify relations between the two posts. In addition, the OIG
team identified a need for mechanisms that ensure accountability and track Embassy Sofia’s
effectiveness as defined in the agreement. This mechanism could include: records of services
performed, measured against the Department’s Uniform Service Standards; trip reports listing
issues discussed/resolved/outstanding, meetings with Vilnius staff, and other activities; and
regular narrative input by the Vilnius management officer on Embassy Sofia’s human resources
performance, which could be used for program evaluation or performance evaluations. The
viability of the Sofia-Vilnius arrangement and its potential use as a model elsewhere in the
region can only be determined after establishing accountability and evaluating the success of the
program based on established standards over a reasonable period of time.

Recommendation 15: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Sofia and Embassy Vilnius, should revise the memorandum of understanding on
human resources regional support, including the specific duties of each embassy and Regional
Support Center Frankfurt, accountability, and performance metrics. After a reasonable evaluation
period, the bureau and embassies should evaluate whether to continue or further revise the
arrangement. (Action: EUR, in coordination with Embassy Sofia and Embassy Vilnius)

General Services

         The general services office received high marks on the 2013 ICASS customer satisfaction
survey. More recent OIG questionnaire data reinforce the scores, as the office rated 4.35 on a 5-
point scale and compared favorably against an average score of 3.72 for prior posts OIG
inspected. The OIG team found the general services office to be strongly led and staffed by very
competent U.S. direct-hire and LE staff who collaborate well, particularly at key points along the
supply chain process. Unit cohesiveness is bolstered by a semiannual off-site teambuilding event
that is organized and funded by general services employees. The event focuses on continuous
improvement, so the group works to develop solutions to operational problems and improve
performance. The last session, for example, concentrated on practices that would enhance service
and thereby raise ICASS service satisfaction and scores. Significantly improved general services
ICASS ratings from 2012 to 2013 indicate they succeeded.

       The OIG team noted no issues with the customs and shipping unit or the travel unit. Both
function within regulations, follow sound business processes, and provide services that are rated
highly by their customers.

Procurement

        The procurement unit functions effectively, with adequate personnel, a sensible
distribution of duties that plays to employee strengths, and good use of the Department-standard
Integrated Logistics Management System to automate processes and maintain internal controls.


                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        An apparent lapse in procurement management controls occurred in 2010-2011, namely,
over 1,000 unauthorized commitments valued at about $1.25 million made by the then-
contracting officer, whose warrant had expired. One of the current general services officers
identified the gross error of his predecessor and took steps to correct it. The Office of the
Procurement Executive ratified them en masse only in October 2012. No consequences appear to
have accrued to the contracting officer, a FAST officer, who was responsible for the
unauthorized commitments. Instead, the LE staff fulfilled the ratification requirements, working
the better part of 2 months to document each procurement action. The OIG team was satisfied
that the embassy is attuned to the need to verify contracting officer warrants.

       The embassy makes no use of blanket purchase agreements and limited use of its
purchase cards, in large part due to the financial management section’s preference to fund
separately each individual purchase. The embassy does not bulk fund purchase agreements or
purchase cards and is not required to do so. Bulk funding could streamline procurement while
maintaining management controls.

   Informal Recommendation 18:         Embassy Sofia should bulk funding purchase cards to
      streamline procurement.

        The procurement unit was functioning as the embassy’s designated billing office
receiving invoices, attaching copies of the purchase order and receiving report, and forwarding
the packet to the financial management office for payment. In March 2013, the financial
management office assumed this role, and the Department clarified via telegram in April 2013
(State 57938) the policy that financial management offices are posts’ designated billing offices.
Embassy Sofia is now in compliance with the Department policy, which facilitates requirements
of the Prompt Payment Act and strengthens management controls.

Property Management

        The property management unit maintains adequate controls and accountability of
nonexpendable and expendable items. Its latest annual inventory of almost $8 million of
nonexpendable property indicated a shortage of about $15,900, which is well below the 1 percent
level that, if exceeded, requires survey board action. Expendable supply inventory totaled almost
$98,000, with no shortages. A spot check of expendable property items during the inspection
showed shelf quantities matched records.

        The embassy has made significant strides in establishing a furniture and appliance pool,
which should reduce overall costs, extend the life span of furnishings, and reduce the need for
warehouse space. The Drug Enforcement Administration is the sole nonparticipant but is
projected to join in FY 2015. Since 2008, the embassy has disposed of property using an online
auction Web site. As a result, the bidder pool is larger, administrative workload and costs are
lower, and the U.S. Government should receive local market price for sale items. The embassy
was recognized for this disposal initiative in the 2012 Office of Logistics Management Supply
Chain Idea competition.

      The property unit faces a challenge with regard to sufficient warehouse storage space.
Having terminated in 2012 its short-term lease warehouse, the embassy now relies only on the
warehouse facility on the embassy compound. Placement of a chiller on the warehouse floor has
                                       21
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

reduced that space; an influx of residential furniture ordered, but not placed in housing units,
further exacerbates the storage problem. The warehouse is now at maximum capacity and the
embassy continues to explore options that will alleviate the warehouse space problems.

       Timely signing of residential inventory forms also presents a challenge. One employee
had been at the embassy almost 3 years and had not signed the inventory that regulations require
be completed within 30 days of the arrival of the occupant. The property unit made an
extraordinary effort prior to the OIG inspection to get signatures on approximately 40
outstanding inventories, the last of which was completed during the inspection.

   Informal Recommendation 19: Embassy Sofia should implement controls to complete
      residential inventories in a timely manner.

        The property unit uses the Integrated Logistics Management System to generate receiving
reports for ordered goods, but the receiving clerk takes a reactive, rather than proactive, approach
to his work. As goods arrive, he searches the database for the corresponding purchase order or
requisition; he does not maintain constant awareness of, or track, what should arrive. Some items
in the queue of items ordered, but not received, dated back more than 1 year with no followup.
Moreover, many items in the same queue had been received, but the clerk had not archived them
in a timely manner, thereby diminishing the utility of the list as a management tool. Maintaining
an accurate list would facilitate tracking and followup of items not yet received.

   Informal Recommendation 20: Embassy Sofia should use the Integrated Logistics
      Management System to accurately track items that have been ordered by the procurement
      unit but not yet received.

Housing

         The interagency housing board performs its functions in accordance with regulations and
meetings are documented. The 22 government-owned and 50 short-term lease residences are
maintained by the facilities management section and landlords, as appropriate. OIG
questionnaire responses indicated general satisfaction with the administration of the program, as
well as maintenance. The Bureau of Overseas Buildings Operations changed Embassy Sofia’s
Locality Index Rating, which determines the maximum allowable residential space. The change
will reduce the square footage allowed for embassy residences by 10 percent. The housing unit is
managing the transition as employees depart and already has terminated four leases that will not
fit into the new profile.

Motor Pool Operations

        Motor pool operations and maintenance work well. The chief of mission established a
vehicle-use policy that was last reviewed and issued in November 2012. The chief of mission
also determined that the RSO should have use of a government-owned vehicle for home-to-
office transportation at no cost. Guidance in 14 FAM 433.3-4 a. on the no-cost aspect, however,
is not clear and the OIG team understands that the Department has been considering for many
months a clarification of the policy. Pending resolution of the matter, which has been in question
for several years, Embassy Sofia’s arrangement may or may not conform to Department policy.

                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 16: The Bureau of Administration should determine if Embassy Sofia’s
policy that allows the regional security officer use of a government-owned vehicle for home-to-
office transportation at no cost is allowable and conforms to Department regulations. (Action: A)

       The RSO is inappropriately using for home-to-office transportation a vehicle that is
meant solely for local guard force activities. He does not have the required advance approval
from the Bureau of Diplomatic Security to use this vehicle. Without the bureau’s approval, he
should use a motor pool vehicle.

Recommendation 17: Embassy Sofia should direct the regional security officer to discontinue
use of the local guard force vehicle. (Action: Embassy Sofia)

        Motor pool chauffeurs document vehicle use on the Optional Form-108, Daily Vehicle
Use Record, and turn them in to the dispatcher for review in accordance with 14 FAM 431.2-2(7)
and 14 FAM 436.1a.; other drivers, such as the local guards and the RSO, do not, however. The
form provides an official record of vehicle use as well as other important information, such as
fuel consumption and vehicle condition, for maintenance purposes.

Recommendation 18: Embassy Sofia should implement controls for drivers to complete and
turn in Optional Form-108, Daily Vehicle Use Record. (Action: Embassy Sofia)

Facilities Management/Safety, Health, and Environmental Management

         The facilities management section delivers services that customers rated very highly on
the most recent ICASS customer satisfaction survey. The section is fundamentally sound in all
aspects: leadership, customer orientation, organizational effectiveness, program management,
initiative, and technical competence. Customer feedback is uniformly positive and centers on
facilities management and general services units providing quality working and living conditions
for employees and their families. The OIG team found a number of examples of the facilities
management team’s initiatives in the areas of operations and service:

   •   Semiannual residential preventive maintenance inspections, during which a team of
       technicians conduct system checks, identify potential deficiencies, and correct them
       before they develop into problems.
   •   Greening initiatives, such as systematic replacement of fluorescent lighting with light-
       emitting diode technology, which is less costly in the long term and more efficient.
   •   Customization of task codes in the automated work order system, which facilitates
       tracking of labor hours more accurately to better plan and manage resources.
   •   Addition of documentation for short-term lease properties, which requires landlords to
       provide data, such as seismic tolerance information, to ensure structural integrity and
       safety of residences.
   •   Conversion of government-owned residential property from fuel oil to natural gas
       heating, which reduces costs and carbon emissions. This initiative also dramatically
       reduced the number of residences to which fuel must be delivered, thereby also reducing
       risk associated with internal controls of bulk fuel programs.

        The inspector’s review of work order data indicated a well-managed system. The work
order clerk updates records in a timely manner, including information on labor hours, equipment,
                                               23
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

and preventive maintenance. A small number of items are past due for valid reasons, such as
pending receipt of parts. A walkthrough of shop areas showed generally neat, organized, and safe
workspaces.

        The safety program appears to function well but the OIG team noted that, prior to the
safety committee meeting in August 2013, the committee had not met since November 21, 2011.
The committee, which is chaired by the DCM and is required to meet at least semiannually, plays
an important role in implementing Department policy and showing front office support of the
program.

Recommendation 19: Embassy Sofia’s safety, health, and environmental management
committee should meet at least semiannually. (Action: Embassy Sofia)

Information Management

       Embassy Sofia’s information management section adequately meets the mission’s
communication and information technology needs. The information management officer has
created a positive working environment and the information management staff is results-
motivated. OIG and ICASS surveys indicate high satisfaction with information management
customer support.

        The OIG team evaluated the mission’s classified and unclassified computer systems,
telephone and radio programs, mailroom and pouch services, communications security, and
emergency planning. All programs and services meet the Department’s standards and are
supported by generally effective management and inventory controls. The OIG team counseled
managers in several areas, including improving mail pickup accountability, updating duplicate
position descriptions, controlling outdated fire extinguisher and safety checks, as well as
expanding the use of their SharePoint site. Emergency planning and records management will
require more sustained attention from management.

Emergency Planning

       The OIG team reviewed the information management contingency plan for the
unclassified computer systems and the alternate command center, which would support embassy
communications in an emergency, and found both current but minimal. The information
management team does not document its rehearsals of the unclassified computer systems
contingency plan nor conduct after-action reviews. The LE staff is competent and committed but
does not have a clear understanding of business function priorities. Management deems power
outages, which occur several times a year, adequate for contingency plan testing; using different
scenarios would improve the training experiences, however. After-action reviews are important
to expose plan deficiencies and develop appropriate emergency responses.

   Informal Recommendation 21: Embassy Sofia should document information
      management contingency plan exercises and conduct after-action reviews of the plan.

      A single member of the information management staff performs the monthly tests of the
communications equipment at the alternate command center. American information management
and emergency action committee members do not regularly participate in the tests. Broad
                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

participation in tests of the alternate command center provides a practical measure of the staff’s
ability to execute emergency plans, increases their familiarity with the plans, and improves
response times and efficiency during emergencies.
Embassy Sofia should include emergency action committee members and American information
management staff in alternate command center exercises.

Records Management

       Embassy employees are not making effective use of the State Messaging and Archive
Retrieval Toolset (SMART) program. Some sections are not using record emails, some
employees have not received guidance on the use of record email, and there is a general lack of
understanding of the procedures for determining which emails must be preserved by using the
archive function of SMART. Records management ensures that important data needed for policy
analysis and archival research will be available in the future.

   Informal Recommendation 22: Embassy Sofia should require personnel to take the
      record email training and to use, as required, the State Messaging and Archive Retrieval
      Toolset.




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
       Employees are quite satisfied with quality-of-life aspects of embassy services, as
evidenced by ICASS and OIG questionnaires.

        The community liaison office receives wide praise for its efforts to welcome, in-process,
and integrate newcomers very quickly into the embassy. The three-person staff effectively
addresses the eight aspects of the community liaison mission and has excellent working
relationships with the management and front offices.

        Parents are satisfied with the embassy-supported school’s ability to meet their education
needs. The Office of Overseas Schools provides some grants for teacher training and materials,
as well as for physical security enhancements. The regional education officer was scheduled to
visit Sofia in late October.

        The health unit is adequately staffed and the community is well served by a Foreign
Service health practitioner, two part-time nurses, an LE staff physician, and an administrative
assistant. It attends well to both medical and administrative aspects of its mission. The health
practitioner is experienced and knowledgeable, and provides sound leadership. The physician
provides excellent liaison with the local medical community for referrals. An inspector
conducted a spot check of controlled substances and found that stock quantities matched records.

        The American Employee Recreation Association provides a variety of popular services
but, until recently, was operating at a loss of at least $1,000 per month. The association board of
directors earlier this year eliminated its unprofitable car wash operation and, as of September 30,
2013, the day care operation that was the biggest money loser. All Americans clients or potential
clients already had opted for other arrangements and only a few LE staff members were using the
day care service. Despite some resulting morale problems, the board has a fiduciary
responsibility to close unprofitable cost centers in order to save the association from bankruptcy.
The current board is conscientiously reviewing all operations, ensuring compliance with
regulations concerning record keeping, reports, administrative procedures, and local labor law.

Recommendation 20: Embassy Sofia should require the American Employee Recreation
Association to complete its review of operations and revise its charter to include only self-
supporting or profitable services. (Action: Embassy Sofia)




                                       26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
        The OIG team found Embassy Sofia management controls to be generally sound. The
Ambassador expressed in her annual management control statement of assurance, dated July 15,
2013, that she was reasonably assured that management control objectives were achieved.
Documentation indicated that the embassy conducted 19 specific reviews in the areas of:
financial management, consular, general services, and facilities management. The reviews
uncovered no significant deficiencies or material weaknesses. The OIG team identified
shortcomings that are addressed in the sections of this report that deal with each functional area.




                                       27
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Sofia should establish a periodic process to assess its progress
in meeting the goals of the Integrated Country Strategy, including appropriate adjustments to
mission reporting, travel, and representation plans, and report the assessment to the Ambassador
and the Bureau of European and Eurasian Affairs. (Action: Embassy Sofia)

Recommendation 2: Embassy Sofia should develop a more structured mentoring and
professional development program for first- and second-tour staff, which includes periodic
engagement with the Ambassador and the deputy chief of mission. (Action: Embassy Sofia)

Recommendation 3: Embassy Sofia should implement a standard operating procedure that
formally delineates between sections responsibilities for handling extradition cases. (Action:
Embassy Sofia)

Recommendation 4: Embassy Sofia should engage with the Bureau of Consular Affairs’ Visa
Office to clarify procedures well in advance of the FY 2014 Summer Work Travel peak season.
(Action: Embassy Sofia, in coordination with CA)

Recommendation 5: Embassy Sofia should review existing consular portfolios and
consolidate related functions. (Action: Embassy Sofia)

Recommendation 6: Embassy Sofia should require teams that include a first- and second-tour
officer and locally employed staff to manage the consular portfolios. (Action: Embassy Sofia)

Recommendation 7: Embassy Sofia, in coordination with the Bureau of Consular Affairs,
Office of Fraud Prevention Programs, should review Sofia’s practice of screening all visa
application supporting documents, and identify a process that will protect the integrity of the
adjudications, while maximizing efficiency and effectiveness of the fraud prevention
investigator. (Action: Embassy Sofia, in coordination with CA)

Recommendation 8: Embassy Sofia should define reporting responsibilities within the
American citizens services unit so that reporting and case management flow directly through the
American citizens services first- and second-tour officer. (Action: Embassy Sofia)

Recommendation 9: Embassy Sofia should establish a mission speakers program for
American employees, including first- and second-tour employees, to conduct outreach to
Bulgarian audiences. (Action: Embassy Sofia)

Recommendation 10: Embassy Sofia should implement a policy for prioritizing requests for
the public affairs section’s photographic and audiovisual services for official mission events and
devise a computer-based system for submitting and tracking requests. (Action: Embassy Sofia)

Recommendation 11: Embassy Sofia should implement a policy of direct payment of salaries
to official residence expense employees by the Ambassador and deputy chief of mission.
(Action: Embassy Sofia)

Recommendation 12: Embassy Sofia should review and update the following position
descriptions and, if warranted, reclassify and regrade them: information assistant (C-73024);
                                       28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

distribution clerk (Admin) (C-76021); warehouseman (C-52633); visa assistant (C-31015); and
visa clerk (C-31003). (Action: Embassy Sofia)

Recommendation 13: Embassy Sofia should formally request the Department to make a
determination on the personal services agreement issue and follow up until the Bureau of Human
Resources and the Office of the Legal Adviser respond. (Action: Embassy Sofia)

Recommendation 14: Embassy Sofia should implement a schedule to update and reissue
annual guidance on the locally employed staff’s legal employment status. (Action: Embassy
Sofia)

Recommendation 15: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Sofia and Embassy Vilnius, should revise the memorandum of understanding on
human resources regional support, including the specific duties of each embassy and Regional
Support Center Frankfurt, accountability, and performance metrics. After a reasonable evaluation
period, the bureau and embassies should evaluate whether to continue or further revise the
arrangement. (Action: EUR, in coordination with Embassy Sofia and Embassy Vilnius)

Recommendation 16: The Bureau of Administration should determine if Embassy Sofia’s
policy that allows the regional security officer use of a government-owned vehicle for home-to-
office transportation at no cost is allowable and conforms to Department regulations. (Action: A)

Recommendation 17: Embassy Sofia should direct the regional security officer to discontinue
use of the local guard force vehicle. (Action: Embassy Sofia)

Recommendation 18: Embassy Sofia should implement controls for drivers to complete and
turn in Optional Form-108, Daily Vehicle Use Record. (Action: Embassy Sofia)

Recommendation 19: Embassy Sofia’s safety, health, and environmental management
committee should meet at least semiannually. (Action: Embassy Sofia)

Recommendation 20: Embassy Sofia should require the American Employee Recreation
Association to complete its review of operations and revise its charter to include only self-
supporting or profitable services. (Action: Embassy Sofia)




                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Sofia should tie the work requirements of all
Department of State U.S. direct-hire employees to its strategic goals.

Informal Recommendation 2: Embassy Sofia should use the political/economic section’s
reporting plan as the core for developing a missionwide reporting plan linked to its Integrated
Country Strategy.

Informal Recommendation 3: Embassy Sofia should apportion representational and travel
funds based on deputy chief of mission-approved section travel and representation plans linked
to the mission’s strategic goals.

Informal Recommendation 4: Embassy Sofia should periodically use its weekly scheduling
meeting to assess whether the Ambassador’s and other senior officers’ meetings are tracking
with the mission’s strategic goals.

Informal Recommendation 5: Embassy Sofia should direct the deputy chief of mission to
develop a paper-flow process that will permit office management specialists to move cables and
memoranda from his inbox to the Ambassador’s, if he has taken no action on them within 12
hours.

Informal Recommendation 6: Embassy Sofia should require the regional security officer to
consult with relevant country team colleagues before developing and reaching decisions on
proposals for front office approval.

Informal Recommendation 7: Embassy Sofia should add the chiefs of the political/economic
and consular sections to the law enforcement working group.

Informal Recommendation 8: Embassy Sofia should require the deputy chief of mission to
identify appropriate mentors to strengthen the consular chief’s leadership, management, and
communication skills. The specific mentoring arrangement should be determined in consultation
with the deputy chief of mission

Informal Recommendation 9: Embassy Sofia should task the consular and public diplomacy
sections to implement an affirmative public outreach strategy prior to the beginning of the
application season for the FY 2014 Summer Work Travel program.

Informal Recommendation 10: Embassy Sofia should invite the Post Support Unit to
participate in its weekly management staff meeting.

Informal Recommendation 11: Embassy Sofia should provide the Class B cashier and
alternate Class B cashier with training on recognizing counterfeit U.S. and local currency.
                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Sofia should provide training on the administration
of the International Cooperative Administrative Support Service program to the council
members.

Informal Recommendation 13: Embassy Sofia should hold awards solicitations semiannually.

Informal Recommendation 14: Embassy Sofia should require supervisors of locally employed
staff to review and update position descriptions if duties change, in accordance with Department
of State guidelines.

Informal Recommendation 15: Embassy Sofia should require supervisors or their proxies to
enter work requirements statements into ePerformance when due.

Informal Recommendation 16: Embassy Sofia should implement management controls to
ensure that employees and supervisors alert time and attendance staff when post differential
payments should stop and restart.

Informal Recommendation 17: Embassy Sofia should require the human resources officer,
management officer, deputy chief of mission, and Ambassador to attend meetings of the Foreign
Service national committee on a regular basis.

Informal Recommendation 18: Embassy Sofia should bulk funding purchase cards to
streamline procurement.

Informal Recommendation 19: Embassy Sofia should implement controls to complete
residential inventories in a timely manner.

Informal Recommendation 20: Embassy Sofia should use the Integrated Logistics
Management System to accurately track items that have been ordered by the procurement unit
but not yet received.

Informal Recommendation 21: Embassy Sofia should document information management
contingency plan exercises and conduct after-action reviews of the plan.

Informal Recommendation 22: Embassy Sofia should require personnel to take the record
email training and to use, as required, the State Messaging and Archive Retrieval Toolset.




                                       31
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                  Name                    Arrival Date
Ambassador                                        Marcie B. Ries                   09/12
Deputy Chief of Mission                           Bryan Dalton                     08/12
Chiefs of Sections:
 Management                                       J. Chris Karber                 07/13
 Consular                                         Deborah Campbell                07/12
 Political/Economic                               Marc Dillard                    07/13
 Public Affairs                                   Elizabeth Fitzsimmons           08/12
 Regional Security                                Seth Green                      06/12
Other Agencies:
 Foreign Agricultural Service (based in Warsaw)   Michael Henney
 Department of Defense –
 Defense Attaché                                  Ray Schultz                     06/11
 Department of Defense –
 Office of Defense Cooperation                    David Galles                    09/12
 Force Protection Detail                          Andrew Covell                   06/10
 Foreign Commercial Service                       Thomas Bruns                    08/13
 Department of Justice –
 Drug Enforcement Agency                          Sheila Lyons                    07/12
 Department of Justice – FBI                      Chris Byers                     08/13
 Department of Energy                             Jon Shearer                     06/12
 U.S. Secret Service                              Carlos Castro                   05/09




                                     32
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM              Deputy chief of mission

Department       Department of State

FAM              Foreign Affairs Manual

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

LE               Locally employed

RSO              Regional security officer

SMART            State Messaging and Archive Retrieval Toolset




                            33
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
